U.S. Department of the Interior
Offke of Inspector General




      EVALUATION REPORT


        FOLLOWUP OF OFFSHORE
     MINERALS LEASING ACTIVITIES,
    MINERALS MANAGEMENT SERVICE

              REPORT NO. 98-I-385
                 MARCH 1998
             United States Department of the Interior
                            OFFICE OF INSPECTOR GENERAL
                                    Washington, DC. 20240



                           EVALUATION REPORT


Memorandum

To:                          Management Service

From:
         Actink Assistant Inspector General for Audits

Subject: Evaluation Report on Followup of Offshore Minerals Leasing Activities, Minerals
         Management Service (No. 98-I-385)


                                 INTRODUCTION

This report presents the results of the followup evaluation of our December 1993 audit report
“Offshore Minerals Leasing Activities, Minerals Management Service” (No. 94-I-l 79). The
objective of our evaluation was to determine whether the Minerals Management Service had
satisfactorily implemented the recommendation in our 1993 report and whether any new
recommendations were warranted. During our review, we noted a condition relating to lease
rental terms that warranted immediate consideration by Service management. Accordingly,
we are also issuing a quick-reaction evaluation report concerning this issue.


BACKGROUND

The Minerals Management Service’s mission includes managing the Offshore Minerals
Leasing Program under the provisions of the Outer Continental Shelf Lands Act, as
amended. To accomplish this part of its mission, the Service prepares oil and gas leasing
schedules, holds lease sales on offshore tracts (up to 5,760 acres), and awards leases on
offshore Federal lands to the highest qualified bidder. For each lease awarded, the Service
receives revenues in the form of bonus bids, rental fees, and royalties if a lessor begins
production of oil and gas on the leased tracts. Bonus bids are a one-time cash amount paid
per acre to the Service by the highest qualified bidders to obtain leases. Rental fees are
annual payments based on a fixed dollar amount per acre, which is established at the time
the lease is issued and paid by a lessor to preserve its rights to the lease. Lessors make
royalty payments equal to a stated share or percentage of the value of the oil or gas
produced on a tract. During calendar years 1996 and 1997, revenues from the sale of
Federal offshore oil and gas leases totaled about $8.9 billion, which comprised royalties
of about $6.5 billion, bonus bids of $2.1 billion, and rents of $321 million.
SCOPE OF EVALUATION

The scope of our followup evaluation included a review of actions taken by the Service to
implement the recommendation made in our December 1993 audit report. As part of the
evaluation, we reviewed documents and records pertaining to the Service’s offshore oil and
gas leasing program for calendar years 1994 through 1997. We also interviewed Service
personnel responsible for administering the program.        Furthermore, we reviewed the
Secretary’s Annual Statement and Report to the President and the Congress for fiscal year
1995, which was required by the Federal Managers’ Financial Integrity Act, and the
Departmental Report on Accountability for fiscal year 1996, which includes information
required by the Act, and determined that no material weaknesses were included in the reports
which directly related to the objective and scope of our evaluation. Our evaluation was
conducted from December 1997 to February 1998 at the Service’s Economics Division in
Herndon, Virginia.

Our evaluation was made in accordance with the “Quality Standards for Inspections,” issued
by the President’s Council on Integrity and Efficiency. Accordingly, we included such tests
of records and other evaluation procedures that were considered necessary under the
circumstances to accomplish our stated objective. Because of the limited scope and objective
of our review, internal controls were reviewed only to the extent that they related to
corrective actions taken on the recommendation in our prior report.

PRIOR AUDIT COVERAGE

In our December 1993 audit report “Offshore Minerals Leasing Activities, Minerals
Management Service” (No. 94-I-179), we reported that the Service had established a $25
minimum bonus bid per acre and a $3 rental fee per acre, which were less than the
$32.50 bonus bid per acre and the $5 .OO rental fee per acre recommended in internal
studies performed by the Service.

Specifically, our prior audit found that a March 1992 study conducted by the Service (the
most current study available at the time of the prior review) concluded that raising the
minimum bonus bid would be in accordance with current market conditions and would
increase Federal revenues. In order to indicate the potential for increased bonus bid
revenues, we included an estimate in the prior report that the Government would have
received up to $25.5 million in additional revenues from 1988 to 1992 had the minimum
bonus bid rate been set at $32.50 per acre (the rate recommended in the March 1992 study)
at the beginning of 1988.

In addition, our prior audit found that the annual rental fee should be increased because the
$3 per acre fee, which was established before 1954, represented only a small percentage of
the total costs involved in oil and gas exploration and that therefore an increase in the fee
would not impact the Service’s ability to lease tracts. In order to indicate the potential for
increased rental fee revenues, we included estimates in the prior report that a $5 per acre
rental fee (the $3 fee established in 1954 and a $2 increase, the optimal amount
recommended by the Service’s March 1992 study) for the period of 1988 to 1992 would have

                                              2
                                                                                                   .



 increased rental fee revenues by $120.6 million and that the additional revenues from 1993
 to 1996 for leases issued during 1988 to 1992 would have added about $35 million to
 revenues. In addition, we concluded that higher minimum bonus bids and higher rental fees
 may encourage companies to begin production or relinquish tracts in a more timely manner,
 with a potential increase in bonus bid revenues from the resale of relinquished tracts.


                          RESULTS OF EVALUATION

 Our December 1993 audit report (No. 94-I- 179) contained the following recommendation:

 We recommend that the Director. Minerals Management Service. establish a nrocedure that
 reouires that the adeauacv of the minimum bonus bid and annual rental fee charges be
    aluat d before each sale and that appropriate adjustments be made if necessarv to ensure
 tehvattheeGovernment receives optimum value for offshore oil and pas leases.

 The Acting Director concurred with the recommendation, stating that he believed that
 “periodic evaluation of the effects of minimum bids and rental rates on Government receipts
 as well as other leasing objectives is clearly in the public interest.” Based on our followup
 evaluation, we found that the Minerals Management Service had taken quick action to fully
 implement this recommendation and had increased rental fee rates per acre, which generated
 an estimated $141 million (Appendix 1) in increased lease revenues between September
 1993 and August 1997. Specifically, we found that 11 lease sales were conducted from
 September 1993 to August 1997, which resulted in the leasing of 4,86 1 tracts totaling about
26 million acres, and that the Service had evaluated the total effect on revenues of raising the
minimum bonus bids and rental fees per acre for each of these sales. Before each lease sale,
the Service prepared a Decision Memorandum for the Assistant Secretary for Land and
Minerals Management that set forth the terms and conditions for the Final Notice of Sale to
be published in the “Federal Register.” For example, for Lease Sale No. 168, the Decision
Memorandum stated that the Service had considered increases in the minimum bid up to a
level of $50 per acre and rental fees up to $10 and concluded that maintaining the minimum
bonus bid level at $25 but increasing rental fees would increase Federal revenues and
encourage oil and gas exploration and development of the leased tracts.

 Based on its analyses, the Service raised the per acre rental fee for leased tracts in water
 depths of less than 200 meters from $3 to $5, beginning with Sale No. 143 in September
 1993, and increased per acre rental fees for tracts of property in water depths of greater than
 200 meters from $3 to $7.50, beginning with Sale No. 157 in April 1996. The Service stated
that one factor considered in deciding to increase fees for tracts in water depths of 200 meters
or more was a November 1995 amendment to the Outer Continental Shelf Lands Act (Title
III of Public Law 104-58) which suspends royalties on a specified amount of oil or gas where
production is in water exceeding 200 meters. The Service stated that the increased fees for
these tracts “would be expected to speed the rates of exploration and development of
productive tracts and relinquishment of leased marginal tracts.”

The Service said that it expects that leasing activities for tracts in water depths of more than
200 meters will continue to increase for at least the next several years. Because of the

                                               3
corresponding increase in rental rates for those tracts, the increase in future revenues as a
result of the implementation of the prior report’s recommendation is expected to continue.
We estimated that the leases issued between September 1993 and August 1997 (Lease Sales
Nos. 143 through 168) will generate an estimated $194 million in increased lease revenues
between 1998 and 2001, as shown in Appendix 2.

Since this report does not contain any recommendations,    a response is not required.

We appreciate the assistance of Minerals Management Service personnel during the conduct
of our evaluation. We also commend the Director, Minerals Management Service, for the
quick implementation of our prior report’s recommendation, which has resulted in significant
increased revenues and future revenues cited in this report.


cc: Assistant Secretary for Land and Minerals Management
                                                                                                                                                                                        .



                                                                                                                                                                   APPENDIX I




                                               ADDITIONAL RENTAL REVENUES
                                              FOR CALENDAR YEARS 1993 TO 1997
                                           FROM TRACTS LEASED FROM 1993 TO 1997

                                                                    .:.:..:...:..‘.i ,::...::::,; :,.::‘:‘:
                                                                    :;x;::.-:- .. .A./. -. ..,                :.::.;i,>,.::::::.:::.,~:..i:::~i:~:i
                                                                                                                            .. ./..,...,.(.(.,.(,..
                                                                                                              ‘::‘;:‘;‘,.:,...  ... ........i,_                             iil~~~~rig~~~~
                                                                    ~~~~~~~
                                                                                                                                                                            ;~~~~
                                                                                                              li.J.ll~~;si:iiiQ:i

                                               $2.00   $1,615,7&l    %1,454,181                               $1,308,76!                                                      $6,616,716
                                                                      3,499,04(                                3,149,13(                         2,834,222     2,550,800      12,033,198
                                                                      2,051,10(                                1,845,99(                          1,661,391    1,495,252       7,053,733
        152              2,896,478              2.00                                                           5,792,95(                         5,213,660     4,692,294      15,698,910
        155               1,445,25 1            2.00                                                           2,890,SO:                         2,601,452     2,341,307       7,833,261
        157              2,050,808              2.00                                                                                             4,101,616     3,691,454       7,793,070
        157              2,590,544              4.50                                                                                            Il,657,448    10,491,703      22,149,lSl
        144                    105,274          2.00                                                                                                210,548       189,493        400.04 1
        161                   944,299           2.00                                                                                              1,888,598    1,699,738       3,588,336
        161              2,463,117              4.50                                                                                            I 1,084,026    9,975,624      21,059,650
        166              1,835,567              2.00                                                                                                           3,671,134       3,671,134
        166              3,399,393              4.50                                                                                                          15,297,268      15,297.268
        149                  10,263.S           2.00                                                                                                               20,527         20,527
        168                   655,720           2.00                                                                                                           I,31 1,440      1,311,440
        168              3.?.,,.,,,,.’
                              736 ,......,.
                                         808    4.50                                                                                                          16,815,636      16,815,636
    !.~~~~~~~~~~~~~~~~
    ‘:‘
      :y:.>:
       . :...:..
            : ....:...:
                    :.:.:A..:
                         ...... ...._.,_
                                       t                                                                  L


*Explanatory note: Similar to the Mineral Management Service’s in-house studies, we assumed a 10 percent annual lease
relinquishment rate. In addition, we assumed that none of the relinquished tracts would be acquired by another company in a
subsequent lease sale and that the amount of increased revenues would therefore be greater than the amount estimated. Also, for
purposes of calculating total rent, the Service treats each fraction of an acre as a full acre.
                                                                                                                                    .



                                                                                                               APPENDIX         2




                        POTENTIAL ADDITIONAL RENTAL REVENUES
                            FOR CALENDAR YEARS 1998 TO 2001
                         FROM TRACTS LEASED FROM 1993 TO 1997

             Sale                  I     Rate I                 I               I                                Total 1998     1
           Number        Acres*      Increasedby        1998     1    1999            2000         2001
             147          1,147,860           2.00   $2,295,7201
             150            672,863           2.00     1,345,726                                                    1,345,726
             152         2,111,532            2.00    4,223,064 $3,800,757                                         8,023,821
             155       1,053,587.5            2.00    2,107,175     1,896,457                                      4,003,632
             157         1,661,154            2.00    3,322,308     2,990,077       $2,691,069                     9,003,454
             157         2,098,34 1           4.50    9,442,532     8,498,278        7,648,450                    25,589,260
             144            85271 .S          2.00       170,543      153,488          138,139                       462,170
             161            764,882           2.00    1,529,764     1,376,787        1,239,108                     4,145,659
            161       1,995,124.65            4.50    8,978,06 1 8,080,254           7,272,228                    24,330,543
            166          1,652,OlO            2.00    3,304,020     2,973,618        2,676,256   62,408,630       11,362,524
            166        3,059,453.6            4.50   13,767,541 12,390,786          11,151,707   10,036,536       47,346,570
            149               9,237           2.00        18,474       16,627           14,964        13,468           63,533
            168             590,148           2.00    1,180,296     1,062,266          956,040       860,436       4,059,038
            168                               4.50   l&134,072     13,620,664       12,258,597   I 1,032,737      52,046,070
           Totals                                               I               I                               %194,077,720




*Explanatory note: Similar to the Mineral Management Service’s in-house studies, we assumed a 10 percent annual lease
relinquishment rate. In addition, we assumed that none of the relinquished tracts would be acquired by another company in a
subsequent lease sale and that the amount of increased revenues would therefore be greater than the amount estimated. Also, for
purposes of calculating total rent, the Service treats each fraction of an acre as a full acre.
I-

                      ILLEGAL OR WASTEFUL ACTIVITIES
                          SHOULD BE REPORTED TO
                   THE OFFICE OF INSPECTOR GENERAL BY:


     Sending written documents     to:                                calling:



                          Within the Continenttil United States

     U.S. Department    of the Interior                          Our 24-hour
     Office of Inspector General                                 Telephone HOTLlNE
     1849 C Street, N.W.                                         l-800-424-5081 or
     Mail Stop 5341                                              (202) 208-5300
     Washington, D.C. 20240


                                                                 TDD for hearing impaired
                                                                 (202) 208-2420 or
                                                                 l-800-354-0996



                          Outside the Continental United States


                                           Caribbean   Rerion

     U.S. Department    of the Interior                          (703) 235-9221
     Office of Inspector General
     Eastern Division - Investigations
     1550 Wilson Boulevard
     Suite 410
     Arlington, Virginia 22209


                                          North Pacific Reeion

      U.S. Department of the Interior                            (700) 550-7428 or
      Office of Inspector General                                COMM 9-011-671-472-7279
      North Pacific Region
      238 Archbishop F.C. Flores Street
      Suite 807, PDN Building
      Agana, Guam 96910
-




    Toll Free Numbers:        E
     l-800-424-5081           z
     TDD l-800-354-0996       i
                              5
    FTS/Commercial Numbers:
     (202) 208-5300
                              B
                              cm
     TDD (202) 208-2420

     HOTLINE ::               E
    1849 C Street, N.W.
